U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 22, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Yellen v. Confederated Tribes of the Chehalis Reservation, Nos. 20-543 & 20-544
Dear Mr. Harris:
On April 20, 2021, a group of respondents led by the Confederated Tribes of the Chehalis
Reservation filed a letter to “clarify their position an issue that arose during oral argument.” The
purpose of this letter is to respond to the Confederated Tribes’ submission.
The Confederated Tribes largely repeat arguments already addressed in the parties’
briefing. For example, the Confederated Tribes claim that a special statute authorizes the existing
Indian Self-Determination Act (ISDA) arrangements involving the regional Alaska Native
corporation (ANC) for the Anchorage area, but the government has already explained why that
statute presupposes and confirms that ANCs are eligible to be treated as Indian tribes under ISDA.
Gov’t Br. 35-36; Gov’t Reply Br. 18. Similarly, the Confederated Tribes claim that the federal
government has “rejected” the proposition that ANCs satisfy the language of the recognition
clause. But the government has explained that it agrees with the ANC petitioners that the
recognition clause can be reasonably read to refer not only to formal recognition for governmentto-government relations but also to the distinct statutory status that Congress has conferred on
ANCs. Gov’t Br. 47-48; Gov’t Reply Br. 19-20. Finally, the Confederated Tribes are correct that
the federal government has historically provided benefits and services to Alaska Natives who are
not enrolled members of a federally recognized Indian tribe, cf. 43 U.S.C. 1626(a), but that point
does not help respondents. Congress’s authorization of ANCs along with Native villages to
administer programs under ISDA helps facilitate the delivery of benefits and services to all eligible
Native Alaskans.
Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0543
YELLEN, JANET L., SECRETARY OF THE
TREASURY
CONFEDERATED TRIBES OF THE CHEHALIS
RESERVATION, ET AL.

BRADLEY G. BLEDSOE DOWNES
2332 HOWLAND HILL ROAD
CRESCENT CITY, CA 95531
949-500-4092
BDOWNES@ELK-VALLEY.COM
LORI BRUNNER
QUINAULT OFFICE OF THE ATTORNEY
GENERAL
136 CUITAN STREET
TAHOLAH, WA 98587
360-276-8215
LBRUNER@QUINAULT.ORG
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
ERIC DAHLSTROM
ROTHSTEIN DONATELLI LLP
1501 W. FOUNTAINHEAD PARKWAY
SUITE 360
TEMPE,, AZ 85282
EDAHLSTROM@ROTHSTEINLAW.COM

NICOLE E. DUCHENEAUX
1404 FORT CROOK ROAD SOUTH
BELLEVUE, NE 68005
531-466-8792
NDUCHENEAUX@BIGFIRELAW.COM
JENNIFER BEAR EAGLE
PO BOX 1204
PINE RIDGE, SD 57770
605-867-2140
JENNIFERBE@OSTLEGAL.ORG
MELISSA ANN HOLYOAK
UTAH ATTORNEY GENERAL'S OFFICE
160 E 300 S., 5TH FLOOR
SALT LAKE CITY, UT 84114
801-538-9600
MELISSAHOLY-OAK@AGUTAH.GOV
HYLAND HUNT
DEUTSCH HUNT PLLC
300 NEW JERSEY AVE., NW
SUITE 900
WASHINGTON, DC 20001
202-868-6838
HHUNT@DEUTSCHHUNT.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN

JONATHAN W. KATCHEN
HOLLAND & HART LLP
1029 W. THIRD AVENUE
SUITE 550
ANCHORAGE, AK 99501
JWKATCHEN@HOLLANDHART.COM
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM
NATALIE A. LANDRETH
NATIVE AMERICAN RIGHTS FUND
745 WEST 4TH AVENUE
SUITE 502
ANCHORAGE , AK 99501
907-276-0680
LANDRETH@NARF.ORG
907-276-2466(Fax)
JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM
JEFFREY S RASMUSSEN
PATTERSON EARNHART REAL BIRD &
WILSON LLP
357 S. MCCASLIN BOULEVARD
SUITE 200
LOUISVILLE, CO 80027
303-926-5292
JRASMUSSEN@NATIVELAWGROUP.COM
303-926-5293(Fax)

ALEXANDER B. RITCHIE
16 SAN CARLOS AVENUE
PO BOX 40
SAN CARLOS, AZ 85550
928-475-3348
ALEX.RITCHIE@SCAT-NSN.GOV
MARGARET CROW ROSENFELD
FORMAN & ASSOCIATES
4340 REDWOOD HIGHWAY
SUITE E352
SAN RAFAEL, CA 94903
415-491-2310
MARGARET@GFORMANLAW.COM
415-491-2313(Fax)
COLETTE ROUTEL
MITCHELL HAMLINE SCHOOL OF LAW
875 SUMMIT AVENUE
SAINT PAUL, MN 55105-3076
COLETTE.ROUTEL@MITCHELLHAMLINE.ED
U
ALAN E. SCHOENFELD
WILMER CUTLER PICKERING HALE & DORR
LLP
7 WORLD TRADE CENTER
250 GREENWICH STREET
NEW YORK, NY 10007
212-937-7294
ALAN.SCHOENFELD@WILMERHALE.COM
KAIGHN SMITH, JR.
DRUMMOND WOODSUM
84 MARGINAL WAY
SUITE 600
PORTLAND, ME 04101-2480
207.772.3627
KSMITH@DWMLAW.COM

CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

20-0544
ALASKA NATIVE VILLAGE CORP. ASSN. INC., ET
AL.
CONFEDERATED TRIBES, ET AL.

PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVE., NW
WASHINGTON, DC 20004
202-389-5000
PAUL.CLEMENT@KIRKLAND.COM
RIYAZ A. KANJI
KANJI & KATZEN PLLC
303 DETROIT ST.
STE 400
ANN ARBOR , MI 48104
734-769-5400
RKANJI@KANJIKATZEN
ALLON KEDEM
ARNOLD & PORTER KAYE SCHOLER LLP
601 MASSACHUSETTS AVE. NW
WASHINGTON, DC 20001
202-942-6234
ALLON.KEDEM@ARNOLDPORTER.COM
JAMES H. LISTER
BIRCH, HORTON, BITTNER, & CHEROT, P.C.
1100 CONNECTICUT AVE., NW
1100 SUITE 825
WASHINGTON,, DC 20036
JLISTER@DC.BHB.COM

MARGARET CROW ROSENFELD
FORMAN & ASSOCIATES
4340 REDWOOD HIGHWAY
SUITE E352
SAN RAFAEL, CA 94903
415-491-2310
MARGARET@GFORMANLAW.COM
415-491-2313(Fax)
COLETTE ROUTEL
MITCHELL HAMLINE SCHOOL OF LAW
875 SUMMIT AVENUE
SAINT PAUL, MN 55105-3076
COLETTE.ROUTEL@MITCHELLHAMLINE.ED
U
KAIGHN SMITH, JR.
DRUMMOND WOODSUM
84 MARGINAL WAY
SUITE 600
PORTLAND, ME 04101-2480
207.772.3627
KSMITH@DWMLAW.COM
CHRISTINE V. WILLIAMS
OUTLOOK LAW LLC
1016 WEST 6TH AVENUE
SUITE 306
ANCHORAGE, AK 99501
907-258-2200
CHRISTINEWILLIAMS@OUTLOOKLAW.COM
LAURA WOLFF
ASSISTANT ATTORNEYS GENERAL
1031 WEST FOURTH AVENUE,
STE. 200
ANCHORAGE, AK 99501
907-269-5100
LAURA.WOLFF@ALASKA.GOV

